Hirsh Singh
Filing as Pro Se
P.O. Box 407 Linwood, NJ 08221
9 Wexford Lane Linwood, NJ 08221
(609) 335-5289
info@hirshsingh.com

HIRSH SINGH Pro Se.,
Plaintiffs,

UNITED STATES SUPREME COURT

v.
PHILIP D. MURPHY, in his official
capacity as Governor of New Jersey,
TAHESHA WAY, in her official
capacity as Secretary of
State of New Jersey,

No.

CERTIFICATE OF SERVICE
October 29, 2020

Defendants.

I, Hirsh Singh, swear and say under penalty of perjury:
1. That I am over the age of 18 years and with mailing address of 9 Wexford Lane, Linwood, NJ
08221. 2. On the undersigned date, I served the parties in the above captioned matter with the Hirsh
Singh On A Petition For Writ Of Certiorari To The Supreme Court Of New Jersey, by providing
electronic Service to the following electronic addresses:
New Jersey Governor Philip D. Murphy
Office of Governor PO Box 001
Trenton, NJ 08625
Mr.Beau Wilson (Counsel for Respondent)

RECEIVED
NOV - 3 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

Beau.Wilson@law,nj oaq.gov
N JAG.ElectronicService.CivilMattersglaw. nj oaq.gov

New Jersey Secretary of State Tahesha Way
NJ Department of State
PO Box 300
Trenton, NJ 08625
Mr.Beau Wilson (Counsel for Respondent)
Beau.Wilson@law.njoaq.gov
N JAG.ElectronicService.CivilMatters@law.njoaq.gov

Supreme Court:
SupremeEmeraent.mbx@nicourts.gov

Superior Court, Appellate Division:
AppellateEmeraent.Mailbox@nicourts.gov

Superior Court:
Clerk of Morris County Superior Court:
naomi. centrella@,ni courts. go v
Secretary of Judge Minkowitz:
Fran.Garaano@nicourts.aov

Additional Respondents:
"JOEBELL@BSFLAWGROUP.COM" JOEBELL@bsflawaroup.com
"howeslegal@gmail.com" howesleaal@amail.com
"Susan.Scott@law.njoag.gov" Susan.Scott@law.nioag.gov
"Nicole.Adams@law.nioaq.gov" Nicole.Adams@law.nioaq.gov

I, Hirsh Singh, Pro Se. do certify under penalty of perjury that the foregoing is true and correct. I
caused a true and correct copy of (1) PETITION FOR A WRIT OF CERTIORARI; (2) MOTION FOR
EXPEDITED CONSIDERATION OF THE PETITION FOR A WRIT OF CERTIORARI AND FOR
EXPEDITED RULING ON THE MERITS IN THE EVENT THAT THE COURT GRANTS THE
PETITION; (3) CERTIFICATE OF WORD COUNT; and (4) APPENDIX, to be filed in person via
paper filing with the Clerk of the US Supreme Court with (5) CERTIFICATE OF SERVICE to
Respondents Counsel, and lower courts.
Dated: October 29th , 2020

Respectfully submitted,
By: s/

Hirsh Singh______
HIRSH SINGH, PRO. SE.

